HHS/OIG, Audit - "Review of Quality Improvement Organization in Rhode
Island," (A-01-06-00507)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in Rhode Island," (A-01-06-00507)
August 23, 2007
Complete
Text of Report is available in PDF format (232 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Senate Finance Committee requested that OIG assess the
fiscal integrity of the Medicare Quality Improvement Organizations (QIO) with
respect to six specified fiscal integrity areas.
Of the $3.7 million of costs reviewed related to the six areas, the Rhode Island
QIO, Rhode Island Quality Partners, provided adequate documentation to support
the costs claimed.  Accordingly, this report contains no recommendations.